Before the Committee on Commerce, Science, and Transportation
Subcommittee on Aviation Operations, Safety, and Security
United States Senate

                           Aviation Safety: FAA
For Release on Delivery
Expected at
2:30 p.m. EDT
Wednesday
June 20, 2007              Oversight of Foreign
                           Repair Stations
CC-2007-076




                           Statement of
                           The Honorable Calvin L. Scovel III
                           Inspector General
                           U.S. Department of Transportation
Mr. Chairman and Members of the Subcommittee:

We appreciate the opportunity to testify on the Federal Aviation Administration’s
(FAA) oversight of foreign repair stations and facilities. Our testimony today is based
on a number of our previous reports as well as our ongoing work. At the outset, it is
important to note that while the United States has the most complex aviation system
in the world, it is also the safest. Multiple layers of controls in air carrier operations
and maintenance processes, along with FAA’s oversight, are largely responsible for
the high level of safety that we have seen in the last 5 years.

This safety record is a remarkable accomplishment given the many changes occurring
within the industry. For example, air carriers continue to struggle for profitability and
are aggressively working to cut costs by reducing in-house staff, renegotiating labor
agreements, and increasing the use of external repair facilities—many of which are
located in foreign countries.

Today’s aviation environment continues to evolve. Since 2001, eight commercial air
carriers have gone through bankruptcy and one has ceased operations. Fuel prices
remain high, and this makes cost control a key factor in both the sustained
profitability and overall survival of an airline. Personnel and aircraft maintenance are
also significant cost areas within an air carrier’s operations, and air carriers have been
outsourcing, or contracting out, more maintenance to domestic and foreign repair
stations to reduce these costs. Outsourcing maintenance is also a means for air
carriers to accommodate the increasingly global nature of air travel. That is, having
maintenance contracts with facilities around the world permits air carriers to readily
obtain needed maintenance repairs and services.

Air carriers have outsourced maintenance for years to both domestic and foreign
repair facilities. These facilities can complete repairs for less cost and provide
services in areas (such as engine repair) that would otherwise require air carriers to
have specialized equipment and staff. Many air carriers outsource their engine work
to the original equipment manufacturers because of the level of expertise and the
product warranties that the manufacturers can provide. However, in recent years, use
of external repair facilities has become more prominent. From 1996 to 2006, while
total maintenance costs fluctuated, air carriers continued to increase the percentage of
maintenance dollars spent on outsourced maintenance—from 37 percent to
64 percent. In 2006, $3.7 billion of the $5.7 billion spent on maintenance was
outsourced (see figure 1).




                                                                                        1
                  Figure 1. Percentage Increase in Outsourced (Contract)
               Maintenance Expense for Major Air Carriers1 From 1996 to 2006
                $6.5

                $6.0

                $5.5

                $5.0

                $4.5

                $4.0
                                                                                                                     64%
                $3.5                                                                                       62%
    Billions




                $3.0                                                                            54%
                                                                 47%
                                               45%       44%               47%     51%
                $2.5
                                       41%
                $2.0           38%
                       37%
                $1.5

                $1.0

                $0.5

                $0.0
                        1996    1997    1998      1999    2000     2001     2002       2003       2004       2005       2006

                                                           Calendar Year
    Source: U.S. DOT Form 41, Schedule P-52 Rep orts                               Contract M aintenance Expense    Total Cost




Neither FAA nor the Department maintain information on how much maintenance air
carriers outsource to foreign facilities, but our work shows that the number of foreign
FAA-certificated repair stations repairing U.S. aircraft has increased from 344 in 1994
to 698 in 2007. We have emphasized that the issue is not where maintenance is
performed but that maintenance requires effective oversight.

However, we have identified challenges in FAA’s ability to effectively monitor the
increase in outsourcing. For example, in July 2003, we reported 2 that FAA had not
shifted its oversight of aircraft maintenance to the locations where the maintenance
was performed. Although air carriers were using external repair stations to perform
more of their maintenance work, FAA was still focusing most of its inspections on the
maintenance work that air carriers performed within their own facilities.

FAA has taken a number of steps to improve its oversight, and we will discuss some
of those improvements today. However, the continuous growth in outsourcing
underscores the need for FAA to remain vigilant in continually improving its
oversight.




1
       Alaska Airlines, America West Airlines, American Airlines, Continental Airlines, Delta Air Lines, Northwest
       Airlines, Southwest Airlines, United Airlines, and U S Airways.
2
       OIG Report Number AV-2003-047, “Review of Air Carriers’ Use of Aircraft Repair Stations,” July 8, 2003.
       OIG reports and testimonies can be found on our website: www.oig.dot.gov.


                                                                                                                                 2
Today, I will begin by briefly discussing the regulatory differences between foreign
and domestic repair stations. I will then move to two areas that we see as key in
FAA’s efforts to effectively oversee outsourced air carrier maintenance—including
that performed by foreign repair stations and facilities.

• Regulatory differences between domestic and foreign repair stations: FAA-
  certificated maintenance facilities are referred to as repair stations. FAA has
  certificated (or licensed) 698 foreign repair stations to perform work on U.S.
  aircraft. The issuance of an FAA certificate means that FAA has determined that
  the facilities have the equipment, personnel, and inspection systems to ensure that
  repairs are completed according to FAA standards. Unlike U.S. repair stations,
  foreign repair stations must first demonstrate a need to obtain an FAA
  certificate—that is, the facility must show that it has potential customers with
  U.S.-registered aircraft. Also, foreign repair station certificates are only valid for a
  1- to 2-year period.

      These requirements are more stringent than those mandated for domestic repair
      stations. However, foreign repair stations are currently exempt from some FAA
      requirements that domestic repair stations must meet. For example, FAA requires
      domestic repair stations to have drug and alcohol programs to periodically test
      employees performing maintenance but does not require foreign repair stations to
      perform drug and alcohol testing on their employees.

    • Strengthening safety oversight of repair stations and non-certificated repair
      facilities: During the past 8 years, FAA has taken important steps to move its
      safety oversight for air carriers and repair stations to risk-based systems. FAA’s
      new oversight system applies to both domestic and foreign repair stations. It is
      designed to help FAA inspectors focus their outsourced maintenance oversight on
      areas that pose the greatest safety risks. FAA is clearly on the right path; however,
      the risk-based systems are not yet at an end state.

      FAA cannot effectively implement a risk-based system for oversight of aircraft
      maintenance if it does not know where the maintenance is performed. In July
      2003 and December 2005, 3 we reported that FAA did not have good systems for
      determining which repair facilities air carriers were using to perform their most
      critical maintenance. FAA has developed new inspector guidance and air carrier
      processes to address this problem, but these efforts still fall short of providing
      FAA with the information it needs. For example, FAA has developed a voluntary
      process for air carriers to report the top 10 critical maintenance providers used
      each quarter. However, as long as the process is voluntary, FAA cannot be
      assured that it is getting the accurate and timely information needed to determine

3
    OIG Report Number AV-2006-031, “Review of Air Carriers’ Use of Non-Certificated Repair Facilities,”
    December 15, 2005.


                                                                                                          3
      where it should focus its inspections. Further, we reported that FAA was not
      aware that non-certificated repair facilities performed critical repairs for U.S. air
      carriers. Our review of 19 air carrier maintenance vendor lists showed that all
      19 air carriers used non-certificated repair facilities to some extent. We identified
      over 1,400 non-certificated repair facilities performing maintenance, and more
      than 100 of these facilities were located in foreign countries. FAA’s efforts to
      improve its oversight in this area are still underway.

    • Ensuring that inspectors are well-positioned to adequately oversee
      maintenance outsourcing: FAA has approximately 3,821 inspectors located in
      offices throughout the United States and in other countries. FAA inspectors must
      oversee both domestic and foreign aspects of air carriers’ maintenance
      operations—a task made more difficult by the rapidly changing aviation
      environment. The pace of these changes makes it imperative for FAA to maintain
      a sufficient number of inspectors to perform safety oversight and place them in the
      right locations.

      In the next 5 years, 51 percent of the current inspection workforce will be eligible
      to retire. However, this is only one of the challenges that FAA faces with its
      inspectors. For example, FAA does not have a staffing model to determine the
      number of inspectors needed and where they should be placed. Until FAA
      develops a staffing model, it will not be able to make the most effective use of its
      resources.

I would now like to discuss the changes occurring in the aviation industry, regulatory
differences, and these two key areas in further detail.

Recent Trends in Outsourcing
We are conducting a review of the type and quantity of maintenance that air carriers
are outsourcing; we plan to report on this review later this year. We are finding that
the amount, or quantity, of maintenance that air carriers outsource continues to climb.
Further, the work that U.S. air carriers outsource includes everything from repairing
critical components, such as landing gear and engine overhauls, to performing heavy
airframe maintenance checks, which are a complete teardown and overhaul of aircraft.
As shown in figure 2, nine major air carriers 4 we reviewed increased the percentage
of heavy maintenance they outsourced to certificated repair stations from 34 percent
in 2003 to 67 percent in 2006.


4
    The carriers represent a cross-section of nine of the largest network and low-cost air carriers and included
    AirTran Airways, Alaska Airlines, America West Airlines, Continental Airlines, Delta Air Lines, JetBlue
    Airways, Northwest Airlines, Southwest Airlines, and United Airlines. Because American Airlines, the
    largest U.S. air carrier, has retained its heavy maintenance as opposed to making a significant shift to
    outsourcing, we did not include it in our review.


                                                                                                              4
           Figure 2. Percentage of Heavy Airframe Maintenance Checks
             Outsourced for Nine Major Air Carriers From 2003 to 2006

                 1400
                 1200
                                                  1212                  1163             1208
                 1000     1126
   # of Checks




                                                                                                 67%
                  800
                                                                               57%              815         Total Checks
                  600
                                  34%                     38%
                  400                                                           662                         Total Outsourced
                  200             385                      455
                    0
                              2003                    2004                2005             2006
                                                                 Year
Source: Air carrier data

Of the heavy maintenance outsourced by the nine carriers in 2006, 35 percent was
sent to foreign maintenance providers, up from 21 percent in 2003. The trend in
outsourcing is significant and underscores the need for FAA to ensure that it has
accurate information on where critical maintenance is performed so it can target its
inspection resources.

Repair stations certificated by FAA are located worldwide, as shown in figure 3.
There are currently 4,216 domestic and 698 foreign FAA-certificated repair stations
available for use by U.S. air carriers.

                   Figure 3. Locations of FAA-Certificated Repair Stations

                                                                                                   Asia
                                                                 Europe
                                                                                         175
                                                                          425
                                       4,216
                                               U.S.
                                      20
                                            11                            9
                        Mexico
                                               41                               Africa
                             Central                                                            17
                             America                                                            Australia
                                                           South
                                                          America                                & New
                                                                                                Zealand
                        Source: FAA data (as of June 10, 2007)


In addition, there are approximately 900 repair facilities in Canada that could be used
by U.S. air carriers. Under a reciprocal agreement with the United States, Canadian
officials certify and monitor operations at these facilities. FAA oversees work


                                                                                                                           5
performed on U.S. aircraft. At least two major U.S. carriers use Canadian facilities to
perform heavy airframe maintenance, and, as I will discuss later, air carriers also use
domestic and other foreign non-certificated repair facilities to perform aircraft
maintenance.

Regulatory Differences Between Domestic and Foreign
Repair Stations
FAA has approved 698 repair stations in countries around the world to perform work
on U.S. aircraft. While FAA verifies that the repair stations have the equipment,
personnel, and inspection systems to ensure that repairs are completed according to
FAA standards, the repair stations are under the regulatory control of a foreign
governmental authority. As a result, there are some requirements that FAA does not
impose on the facilities. For example, FAA does not require foreign repair stations to
conduct background checks or drug and alcohol testing on their employees. There are
also other differences between foreign and domestic repair stations (see table 1).

        Table 1. Regulatory Differences Between Domestic and
                       Foreign Repair Stations
    Regulatory Difference                 Domestic                            Foreign
                                     FAA-Certificated                    FAA-Certificated
                                      Repair Stations                     Repair Stations
  Duration of FAA Certificate   Certificate lasts indefinitely   Certificate must be renewed every
                                                                 1 to 2 years

  Fees for Certification        Do not pay FAA for               Pay FAA for certification and
                                certification                    renewal costs

  Drug and Alcohol Testing      Required to have a program       Not required to have a program
  Program

  Certificated Mechanics        Certain personnel, such as       Personnel are not required to be
                                return to service and            FAA-certificated
                                supervisory personnel, must
                                be FAA-certificated              (Note: Personnel must meet
                                                                 certain training and qualification
                                                                 requirements. Mechanics may be
                                                                 certificated by the aviation
                                                                 authority where they are located.)

  Security Regulations          Repair stations on          Repair stations are not subject to
                                commercial airport property U.S. security requirements
                                are subject to security
                                requirements
 Source: OIG




                                                                                                      6
As table 1 demonstrates, foreign repair stations must comply with more stringent
requirements, in some respects, than domestic repair stations to get and maintain their
FAA certification. For example, foreign repair station applicants must show the need
to obtain an FAA certificate. That is, applicants must be able to show that they have
customers with U.S.-registered aircraft or customers with parts used on U.S.-
registered aircraft. U.S. repair station applicants do not have to meet these criteria.
Also, an FAA foreign repair station certificate is only valid for a 1- to 2-year period.

Foreign repair stations must pay for comprehensive annual or biannual FAA-required
inspections in order to maintain, or renew, their certificate, whereas domestic repair
stations can hold their certificates indefinitely. Conversely, in some areas, such as
personnel requirements, domestic repair stations are held to more stringent provisions
than their foreign counterparts. For example, U.S. repair stations must employ
FAA-certificated mechanics to approve all repairs; foreign repair stations are not held
to this requirement.

However, some foreign countries may have their own mechanic licensing
requirements that are just as stringent as those required of FAA-certificated
mechanics. For example, one country we visited requires its mechanics to be at least
21 years old and have a minimum of 48 months of aviation experience. Also, this
country’s mechanics are certificated for a specific size of aircraft. In contrast, FAA-
certificated mechanics must be at least 18 years old and have a minimum of
30 months of aviation experience; also, they can work on aircraft of any size.

In 2003, we identified another difference between foreign and some domestic repair
stations—repair stations located on commercial U.S. airport property must comply
with U.S. security requirements. Repair stations located on foreign airport property in
foreign countries are not subject to U. S. security requirements. The level and depth
of security programs in other countries, including background checks, are subject to
the government requirements in the country where the repair station operates.

To address security concerns at aircraft repair stations, Congress included a provision
in the Federal Aviation Reauthorization Act (Vision 100), 5 which required the
Transportation Security Administration, in consultation with FAA, to issue a final rule
imposing security standards on foreign and domestic repair stations by August 2004.
The rule has not yet been issued.




5
    Vision 100 – Century of Aviation Reauthorization Act, Pub. L. No. 108-176 (2003).


                                                                                        7
Strengthening Safety Oversight of Repair Stations and
Non-Certificated Repair Facilities
FAA has strengthened its repair station oversight through implementation of a risk-
based oversight system for both domestic and foreign repair stations. The system is
designed for inspectors to use information obtained from data analysis to focus their
oversight on areas with the greatest safety risks. In our view, a risk-based system is
even more crucial to FAA’s ability to maximize its inspection resources and travel
budget given the increasingly global nature of the airline industry. Risk-based
oversight should significantly enhance FAA’s ability to focus its inspections;
however, we have identified a number of concerns that FAA must address to continue
advancing the program.

FAA Must Ensure That Its New Risk-Based Oversight System for Repair
Stations Is Effective
In July 2003, we reported that FAA oversight had not shifted to where the
maintenance was actually being performed. Instead, inspectors continued to focus
inspections on in-house air carrier maintenance. For example, inspectors completed
400 inspections of in-house maintenance at 1 air carrier but only 7 inspections of
repair stations. This occurred even though this carrier contracted out nearly half of its
maintenance that year.

We also reported that 138 repair stations in Germany, France, and Ireland were not
inspected by FAA at all. Under a bilateral agreement with the European Joint
Aviation Authorities, FAA permitted foreign authorities to inspect FAA-certificated
repair stations on its behalf to prevent duplicative inspections and reduce the financial
burden on foreign repair stations. However, FAA did not have an adequate method to
monitor the surveillance performed by other authorities. For example, most of the
inspection files we reviewed that FAA received from the foreign authorities were
either incomplete, written in a foreign language, or otherwise difficult to comprehend.

Since our 2003 report, FAA officials have worked closely with the aviation
authorities of other countries to improve the surveillance they perform on FAA’s
behalf. For example, FAA is no longer limited in the number of inspections it can
perform to verify the quality of foreign aviation authority inspections. However, we
are concerned that FAA is still not regularly visiting the facilities in the countries
where agreements exist with other aviation authorities. For example, FAA
international field office inspectors had not conducted any spot inspections of one
major foreign engine repair station in 5 years (2001-2006). In addition, FAA
inspectors for 1 air carrier that used the repair station had not visited the facility
within the same 5-year period, even though the repair station had performed
maintenance on 39 (74 percent) of the 53 engines repaired for the air carrier.




                                                                                       8
In recent years, FAA has made significant progress in improving its repair station
oversight. For example, under FAA’s old inspection system for repair stations,
inspectors were instructed to perform one inspection of each facility per year and
could review any aspect of the repair station’s operations. Inspectors were not
required to provide detailed information on the areas they inspected or the issues
identified. Since October 2005, inspectors have been required to review 15 areas
within repair station operations to obtain a baseline assessment of each facility. Using
the information from this assessment, inspectors can focus their oversight on risk
areas identified within the facility. Further, the information generated from this
oversight will be available for review by all FAA inspectors to assist them in targeting
their inspections more effectively.

For the new oversight system to be successful, FAA needs to ensure that its inspectors
receive the training they need to properly implement the new processes. FAA must
also ensure that it has reliable processes for determining where maintenance is
performed.

FAA Must Have Adequate Processes for Determining Where the Most Critical
Maintenance Is Performed and How it Should Be Monitored
In 2003, we reported that FAA inspectors did not have effective procedures for
determining which FAA-certificated repair stations air carriers were using to perform
maintenance that could impact the airworthiness of their aircraft. In December 2005,
we reported that FAA was unaware of air carriers’ use of non-certificated repair
facilities to perform critical maintenance.6 These facilities are not covered under
FAA’s routine oversight program and do not have the same regulatory requirements
as repair stations that obtain certification from FAA.

Air carriers are required to provide—and FAA must approve—a list of substantial
maintenance providers, which are repair stations that can conduct major repairs on the
air carrier’s aircraft. These procedures are designed to provide inspectors with
information on where air carriers intend to send their substantial maintenance.
However, the information that air carriers provided did not always represent the
facilities they actually used or show the quantity of work they sent to each facility.
For example, we identified one foreign repair station designated as a “substantial
maintenance provider” for a major U.S. carrier even though it had not conducted any
significant maintenance work for the air carrier in almost 3 years. FAA’s surveillance
should be better targeted to those repair facilities that air carriers use regularly.



6
    In our December 2005 report, we identified critical repairs as those repairs categorized as Required Inspection
    Items by each air carrier. Required Inspection Items are mandatory maintenance activities that, due to the
    importance to the overall airworthiness of the aircraft, must be independently inspected by a specially trained
    inspector after the work is completed.


                                                                                                                 9
FAA’s new process for identifying certificated repair stations that air carriers
use to perform maintenance is not effective. In response to our July 2003 report,
FAA implemented a system in fiscal year 2007 for both air carriers and repair stations
to submit quarterly utilization reports. These reports are supposed to show the
quantity, or volume, of critical repairs that maintenance providers perform for air
carriers and repair stations. However, submission of this information is not
mandatory. FAA’s Flight Standards staff advised us that a new rule would be
required to make volume reporting mandatory and that they believed air carriers
would provide the requested information voluntarily. Early indicators show that air
carriers are submitting the reports. Our review of FAA records for nine air carriers
showed that as of March 23, 2007, seven of the nine air carriers had submitted
quarterly utilization reports for the quarter ending December 2006. FAA must ensure
that air carriers file these reports in a timely manner.

Our primary concerns with the reports are that (1) air carriers do not include all repair
stations that provide critical component repairs and (2) FAA does not validate the
information provided. Air carriers are only requested to report the top 10 substantial
maintenance providers used—the ones most frequently used per quarter. The reports
do not have to include repair stations that perform high-volume, critical component
repairs on parts such as wheels and brakes because FAA’s definition of substantial
maintenance does not include component repairs. Further, without some form of data
verification, FAA cannot be assured that air carriers have provided accurate and
complete information. If the reports are to be an effective means for FAA to track
and accurately target those repair facilities that air carriers use the most, a more
thorough process will be needed.

FAA needs to develop a mechanism to identify non-certificated repair facilities
performing critical maintenance for air carriers. In December 2005, we reported
that air carriers were using domestic and foreign repair facilities that were not
certificated by FAA to perform critical and scheduled 7 aircraft maintenance. FAA
was unaware of this practice. Air carriers have used non-certificated facilities for
years, but it was widely believed that these facilities principally performed minor
aircraft work on an as-needed basis. However, we determined that both domestic and
foreign non-certificated facilities can and do perform the same type of work as FAA-
certificated repair stations, including scheduled and critical maintenance. We
examined records at three air carriers and identified 6 domestic and foreign facilities
that performed scheduled maintenance and 21 that performed maintenance critical to
the airworthiness of the aircraft.



7
    This maintenance is required to be performed at regularly scheduled times, such as inspections required after
    the aircraft has flown a designated number of hours (e.g., inspections of crew and passenger oxygen, aircraft
    fuselage, wings, and engines).


                                                                                                              10
We are especially concerned that air carriers rely on non-certificated facilities to
perform scheduled maintenance tasks that the air carriers can plan for well in advance.
For example, we identified an air carrier’s use of a non-certificated facility to perform
work on three aircraft that was required for compliance with an FAA Airworthiness
Directive. Other critical repairs we found included adjustments to flight control
systems and removal and replacement of an engine.

FAA does not know how many non-certificated maintenance facilities air carriers
currently use because it does not maintain a list of the facilities. We sampled 19 air
carriers, and all 19 were using non-certificated facilities to some extent. We
identified over 1,400 non-certificated repair facilities performing maintenance, and
more than 100 of these facilities were located in foreign countries, such as Aruba,
Belize, Bermuda, Dominican Republic, El Salvador, Guatemala, Haiti, and Mexico.
It is important to note that in many instances, air carriers contracted with facilities in
these locations to ensure that they had a maintenance source in locations where there
were no FAA-certificated repair stations available.

Nevertheless, permitting non-certificated facilities to perform critical maintenance is
an important issue that FAA must address. To do so, FAA must first determine which
non-certificated facilities perform critical and scheduled maintenance and then decide
if it should limit the type of work these facilities can perform.

FAA Cannot Rely on Air Carrier Oversight Programs for Non-Certificated
Repair Facilities
FAA permits air carriers to use domestic and foreign non-certificated facilities as long
as the work is approved by an FAA-certificated mechanic. However, this is not an
adequate substitute for an FAA-certificated repair facility because non-certificated
facilities do not have the safeguards and controls for maintenance repair and oversight
that is required at FAA-certificated facilities. Differences in FAA requirements for
these two types of maintenance operations are illustrated in table 2.




                                                                                       11
 Table 2. Differences in Requirements for FAA-Certificated Repair
              Stations and Non-Certificated Facilities
                     FAA                      Certificated         Non-Certificated
                 Requirement                 Repair Station         Repair Facility
            Annual FAA                         Required              Not Required
            Inspections
            Quality Control System              Required              Not Required


            Report Failures,                    Required              Not Required
            Malfunctions, and
            Defects
            Designated Supervisors              Required              Not Required
            and Inspectors

            Training Program                    Required              Not Required
            Facilities and Housing*             Required              Not Required
           *If authorized to perform airframe repairs, certificated repair stations must have
            facilities large enough to house the aircraft they are authorized to repair.
            Source: OIG analysis

We found that air carrier quality systems under which these repairs were performed
were not as effective as they should have been. This was particularly true in the areas
of mechanic training and oversight of these facilities.

Non-certificated repair facilities are not required to employ designated supervisors
and inspectors to monitor maintenance work as it is being performed. Relying solely
on the expertise of an individual mechanic to ensure that repairs are completed
properly is an inadequate control mechanism. In our view, this is the reason FAA
requires added layers of oversight, such as designated supervisors and inspectors, in
its certificated facilities.

In our December 2005 report, we stated that neither FAA nor the six air carriers we
visited provided adequate oversight of the work performed at non-certificated repair
facilities. The air carriers we reviewed relied primarily on telephone contact to
monitor maintenance performed at these facilities rather than conducting on-site
reviews of the actual maintenance work. In contrast, as an added level of quality
control, air carriers often assign on-site representatives to monitor the work performed
at certificated repair stations.

Despite the differences in quality controls and oversight that exist between
certificated and non-certificated maintenance facilities, there are no limitations on the
scope of work that non-certificated repair facilities can perform. For example, we
looked at critical repairs performed under special authorizations at 1 air carrier and


                                                                                                12
found that over a 3-year period, 14 of the 19 (74 percent) repairs were performed at
non-certificated repair facilities. Examples of the work performed include landing
gear checks, lightning strike inspections, and door slide replacements. In contrast,
FAA-certificated repair stations are limited to completing only the specific
maintenance tasks that FAA has determined the facility is capable of performing.

FAA agreed that it needs to place more emphasis on the oversight that air carriers
provide to non-certificated facilities and that it needs to gather more information on
the type of work these facilities perform. FAA’s efforts in this area are still
underway. If FAA is to achieve the planned improvements in oversight of outsourced
maintenance, it will need to obtain definitive data on where air carriers are getting the
maintenance performed, including critical and scheduled maintenance work done at
non-certificated repair facilities, so that it can focus its inspections to areas of greatest
risk.

Ensuring Inspectors Are Well-Positioned To Adequately
Oversee Maintenance Outsourcing
In June 2005, we reported that FAA needed to ensure that its inspection workforce
was adequately staffed. Currently, FAA has approximately 3,821 inspectors located
in offices throughout the United States and other countries. FAA has assigned a
portion of its inspector workforce to verify that foreign facilities used by U.S. air
carriers continue to meet FAA standards. As shown in table 3, FAA has
86 International Field Office inspectors. Of these 86 inspectors, approximately 47 are
located abroad (i.e., Germany, England, and Singapore).




                                                                                          13
 Table 3. FAA International Field Office Inspectors and Their Areas
                         of Responsibility
  International Field         Number of        Area of Responsibility       Number of
     Office (IFO)             Inspectors                                     Foreign
                                                                             Repair
                                                                             Stations
  Dallas IFO                        5                    Mexico                 20
                                             Europe (excluding the United
                                               Kingdom), Africa, and the
  Frankfurt IFO                    26                  Middle East             300
  London IFO                       13               United Kingdom             162
                                                 South America, Central
  Miami IFO                        20         America, and the Caribbean       52
                                                Australia, New Zealand,
                                               Japan, Korea, Philippines,
                                                 Fiji, Taiwan, and other
  San Francisco IFO                14        Asian-Pacific Island Nations      61
                                               China, Hong Kong, India,
                                                  Indonesia, Malaysia,
                                                Singapore, Thailand, and
  Singapore IFO                     8         other Asian-Pacific Nations      103
                                                                            698 Repair
  TOTAL                      86 Inspectors                                   Stations
 Source: FAA data (as of June 10, 2007)

FAA will never have enough inspectors to oversee every aspect of aviation
operations. However, FAA faces challenges in balancing potential inspector
retirements with the number of inspectors it is able to hire. This year, 27 percent (or
1,037 of the 3,821) of the current inspector workforce will be eligible to retire. By
2012, 51 percent of the workforce will be eligible to retire. To counter this trend,
FAA requested funding to hire an additional 203 aviation safety inspectors in its fiscal
year 2008 budget submission. In 2006, FAA hired 538 inspectors, but lost 226 (181
to retirements and 45 for other reasons). However, FAA will need to know where to
place inspectors to make the most effective use of its resources.

FAA Needs a Process To Determine Inspector Placement
FAA does not have a process to determine the number of inspectors needed and where
they should be placed. FAA has made at least two attempts to develop a staffing
model to determine the appropriate number of and best locations for its inspectors.
However, neither of the two models provided FAA with an effective approach to
allocate inspector resources. During our review of FAA oversight of financially
distressed and low-cost air carriers, we found inconsistencies in the way that FAA
allocated inspectors among field offices. For example, two FAA offices had the same
number of inspectors assigned to oversee the air carriers in their geographic areas


                                                                                         14
even though one of those carriers had twice as many aircraft and 127 percent more
flights than the other.

Until FAA develops an effective staffing model, it will not be able to determine where
inspectors should be placed to make the most effective use of its resources. The
important implications of the changing U.S and global aviation environment that we
have discussed today are expected to be key drivers of future inspector staffing needs.
Air carriers’ outsourcing of aircraft maintenance, FAA’s shift to a system safety
oversight approach, and safety inspectors’ attrition and retirement are all significant
changes that must be considered in determining staffing needs. FAA advised us that
it has hired an independent contactor to conduct a study to determine the most
effective staffing mechanism. However, completion of this process is likely years
away.

Mr. Chairman, that concludes my statement. I would be pleased to address any
questions that you or other Members of the Subcommittee might have.




                                                                                    15
The following pages contain textual versions of the graphs and charts found in this
document. These pages were not in the original document but have been added here
to accommodate assistive technology.
             Aviation Safety: FAA Oversight of Foreign Repair Stations

                           Section 508 Compliant Presentation

Figure 1. Percentage Increase in Outsourced Maintenance Expense for Major
Air Carriers From 1996 to 2006
 (Year) 1996     Of the total maintenance cost, 37 percent was outsourced maintenance expense.
 (Year) 1997     Of the total maintenance cost, 38 percent was outsourced maintenance expense.
 (Year) 1998     Of the total maintenance cost, 41 percent was outsourced maintenance expense.
 (Year) 1999     Of the total maintenance cost, 45 percent was outsourced maintenance expense.
 (Year) 2000     Of the total maintenance cost, 44 percent was outsourced maintenance expense.
 (Year) 2001     Of the total maintenance cost, 47 percent was outsourced maintenance expense.
 (Year) 2002     Of the total maintenance cost, 47 percent was outsourced maintenance expense.
 (Year) 2003     Of the total maintenance cost, 51 percent was outsourced maintenance expense.
 (Year) 2004     Of the total maintenance cost, 54 percent was outsourced maintenance expense.
 (Year) 2005     Of the total maintenance cost, 62 percent was outsourced maintenance expense.
 (Year) 2006     Of the total maintenance cost, 64 percent was outsourced maintenance expense.
Source: United States Department of Transportation Form 41, Schedule P-52 Reports

Figure 2. Percentage of Heavy Airframe Maintenance Checks Outsourced for
Nine Major Air Carriers From 2003 to 2006
 (Year) 2003     1,126 total checks; of this amount, 385 (or 34 percent) were outsourced.
 (Year) 2004     1,212 total checks; of this amount, 455 (or 38 percent) were outsourced.
 (Year) 2005     1,163 total checks; of this amount, 662 (or 57 percent) were outsourced.
 (Year) 2006     1,208 total checks; of this amount, 815 (or 67 percent) were outsourced.
Source: Air carrier data

Figure 3. Locations of Federal Aviation Administration-Certificated Repair
Stations
 United States                  4,216 Repair Stations
 Mexico                         20 Repair Stations
 Central America                11 Repair Stations
 South America                  41 Repair Stations
 Europe                         425 Repair Stations
 Africa                         9 Repair Stations
 Asia                           175 Repair Stations
 Australia and New Zealand      17 Repair Stations
Source: Federal Aviation Administration data (as of June 10, 2007)
Table 1. Regulatory Differences Between Domestic and Foreign Repair Stations
Regulatory     Duration of FAA Certificate   For domestic              For foreign
Difference                                   FAA-certificated          FAA-certificated
                                             repair stations:          repair stations: Certificate
                                             Certificate lasts         must be renewed every 1
                                             indefinitely              to 2 years
Regulatory     Fees for Certification        Domestic                  Foreign
Difference                                   FAA-certificated          FAA-certificated
                                             repair stations: do not   repair stations: Pay FAA
                                             pay FAA for               for certification and
                                             certification             renewal costs
Regulatory     Drug and Alcohol Testing      Domestic                  Foreign FAA-certificated
Difference     Program                       FAA-certificated          repair stations: Are not
                                             repair stations: Are      required to have a program
                                             required to have a
                                             program
Regulatory     Certificated Mechanics        For domestic FAA-         For foreign FAA-
Difference                                   certificated repair       certificated repair stations:
                                             stations: Certain         Personnel are not required
                                             personnel, such as        to be FAA-certificated
                                             return to service and
                                             supervisory personnel,    (Note: Personnel must
                                             must be FAA-              meet certain training and
                                             certificated              qualification requirements.
                                                                       Mechanics may be
                                                                       certificated by the aviation
                                                                       authority where they are
                                                                       located.)
Regulatory     Security Regulations          For domestic FAA-         For foreign FAA-
Difference                                   certificated repair       certificated repair stations:
                                             stations: Repair          Repair stations are not
                                             stations on               subject to U.S. security
                                             commercial airport        requirements
                                             property are subject to
                                             security requirements
 Source: OIG
Table 2. Differences in Requirements for Federal Aviation Administration-Certificated
Repair Stations and Non-Certificated Facilities

 Federal Aviation Administration           Required at Federal Aviation        Not Required at
 Requirement: Annual Federal               Administration-Certificated         Non-Certificated
 Aviation Administration Inspections       Repair Stations                     Facilities
 Federal Aviation Administration           Required at Federal Aviation        Not Required at
 Requirement: Quality Control              Administration-Certificated         Non-Certificated
 System                                    Repair Stations                     Facilities
 Federal Aviation Administration           Required at Federal Aviation        Not Required at
 Requirement: Reporting of Failures,       Administration-Certificated         Non-Certificated
 Malfunctions, and Defects                 Repair Stations                     Facilities
 Federal Aviation Administration           Required at Federal Aviation        Not Required at
 Requirement: Designated                   Administration-Certificated         Non-Certificated
 Supervisors and Inspectors                Repair Stations                     Facilities
 Federal Aviation Administration           Required at Federal Aviation        Not Required at
 Requirement: Training Program             Administration-Certificated         Non-Certificated
                                           Repair Stations                     Facilities
 Federal Aviation Administration           Required at Federal Aviation        Not Required at
 Requirement: Facilities and Housing       Administration-Certificated         Non-Certificated
                                           Repair Stations                     Facilities
Note to Facilities and Housing Requirement: If authorized to perform airframe repairs, certificated
repair stations must have facilities large enough to house the aircraft they are authorized to repair.
Source: Office of Inspector General analysis
Table 3. Federal Aviation Administration Field Office Inspectors and Their Areas
of Responsibility
 Dallas                      5        Area of Responsibility: Mexico               20 Foreign
 International Field     Inspectors                                                  Repair
 Office                                                                             Stations
 Frankfurt                   26       Area of Responsibility: Europe (excluding   300 Foreign
 International Field     Inspectors   the United Kingdom), Africa, and the           Repair
 Office                               Middle East                                   Stations

 London                      13       Area of Responsibility: United Kingdom      162 Foreign
 International Field     Inspectors                                                  Repair
 Office                                                                             Stations
 Miami                       20       Area of Responsibility: South America,       52 Foreign
 International Field     Inspectors   Central America, and the Caribbean             Repair
 Office                                                                             Stations
 San Francisco               14       Area of Responsibility: Australia, New       61 Foreign
 International Field     Inspectors   Zealand, Japan, Korea, Philippines, Fiji,      Repair
 Office                               Taiwan, and other Asian-Pacific Island        Stations
                                      Nations

 Singapore                   8        Area of Responsibility: China, Hong         103 Foreign
 International Field     Inspectors   Kong, India, Indonesia, Malaysia,              Repair
 Office                               Singapore, Thailand, and other Asian-         Stations
                                      Pacific Nations


Totals shown in table 1 are as follows: 86 total international field office inspectors and
698 total foreign repair stations.
Source: Federal Aviation Administration; data are as of June 10, 2007
